               United States Department of th e Interior
                                Office of Inspector General
                                       Central Region Aud its

                                   134 Union Boulevard, Suite 510

                                    Lakewood, Co lorado 80228



                                                                 Report No. C-YS-BLM-0003-2007
                                                                                February 22, 2007

Memorandum

To:            Director, Bureau of Land Management
               Assistant Secretary for Policy, Management and Budget
               (Attention: Associate Director for Finance, Policy and Operations)

From:          JackRouch    tl~
               Regional Au¥ Manager
                                        »<>:
Subject:       Verification Review of the Two Recommendations Contained in Our Audit
               Report, "Land Exchanges and Acquisitions, Bureau of Land Management, Utah
               State Office" (Report No. 2001-1-413)

We completed a verification review of the two closed recommendations from the subject audit
report. The objective of this review was to determine whether the two recommendations were
implemented as reported by the Bureau of Land Management (BLM).

We determined that Recommendation 1 was implemented. Because BLM's real estate appraisal
function was consolidated into the National Business Center (NBC), Recommendation 2 was no
longer valid and was closed. We consider the status of this recommendation to be properly
closed without implementation. The status of the recommendations is summarized in the
Appendix. The results of the verification review are summarized in the Results of Review
section.

                                          Background

Our July 2001 audit report, "Land Exchanges and Acquisitions, Bureau of Land Management,
Utah State Office" (No. 2001-1-413), made two recommendations to correct deficiencies in
BLM's real estate appraisal process. In the report, we determined that BLM may have
compromised the independence and objectivity of its appraisal process by using an alternative
approach that did not separate the appraisal process from price negotiations. BLM also did not
ensure that its appraisal reviews complied with appraisal standards or that land was acquired and
exchanged based on fair market value.

In a June 6, 2001 response, BLM concurred with both of the report's recommendations. BLM's
response contained an action plan outlining the steps that BLM would take to implement the two
recommendations. Based on that response, we considered the recommendations to be resolved
but not implemented. In a July 20, 2004 memorandum from the Office of Financial
Management to the Office of Inspector General we were notified that this report was closed.

                                   Scope and Methodology

The scope of our review was limited to determining whether BLM implemented the
recommendations as reported. To accomplish our objective, we reviewed the supporting
documentation that BLM submitted to close the recommendations. We also interviewed BLM
personnel and reviewed additional information they supplied. We did not perform site visits or
conduct detailed fieldwork to determine whether underlying deficiencies identified in the
original report have been corrected.

This review was not conducted in accordance with the Government Auditing Standards issued by
the Comptroller General of the United States.

                                   Results of Review

Recommendation 1
Obtain a peer review from The Appraisal Foundation of BLM’s appraisal organization,
policies, and procedures, including an evaluation of the alternative approach implemented
in Washington County, Utah. The review should recommend any changes needed to (a)
protect the integrity of the appraisal process; (b) ensure the accountability of appraisers in
conformance with professional and federal appraisal standards; (c) establish controls to
prevent managers from interfering with the appraisal process through inappropriate
direction; (d) separate negotiations from the appraisal process; (e) ensure that landowner
involvement does not compromise the appraisal process; and (f) ensure the conduct of
appraisals and appraisal reviews in conformance with data, documentation, and reporting
standards of federal and professional appraisal standards.

In March 2002, BLM contracted with The Appraisal Foundation to perform an evaluation of
BLM’s appraisal program. The Appraisal Foundation is an independent non-profit organization
recognized by the Congress as the source of appraisal standards and appraiser qualifications.
After a comprehensive review, The Appraisal Foundation issued a report on October 9, 2002,
that contained 24 recommendations designed to improve BLM’s appraisal program. We
reviewed this report and consider Recommendation 1 to be implemented.

Recommendation 2
Implement the changes recommended by the peer review to ensure that BLM has a first-
class appraisal system that protects the integrity and independence of the appraisal
process.

In February 2003, BLM formed the Appraisal and Exchange Workgroup to address findings
relating to BLM’s appraisal program contained in audit reports issued by both the Government
Accountability Office and the Office of Inspector General as well as the report issued by The

                                               2
Appraisal Foundation. In May 2003, the Workgroup issued a report containing 38
recommendations.

On November 12, 2003, the Secretary issued Order No. 3251 authorizing consolidation of the
Department of the Interior’s real estate appraisal functions into NBC within the Office of the
Secretary effective immediately. The Order transferred to NBC all real estate appraisal functions
from BLM, the National Park Service, the Fish and Wildlife Service, and the Bureau of
Reclamation. The Appraisal and Exchange Workgroup had begun to implement the changes
recommended by the Appraisal Foundation; however, as a result of the Secretary’s action, BLM
was unable to complete the implementation process. We concluded that Recommendation 2 was
no longer valid and was properly closed without implementation.

                                           Conclusion

At the exit conference on February 9, 2007, we informed BLM officials that we concluded that
Recommendation 1 was implemented and Recommendation 2 was properly closed without
implementation.

                                   Responding to the Report

Because we consider both of the recommendations to be properly closed, a response to this
report is not necessary. If you have any questions regarding this report, please call me at 303-
236-9243.



cc:    Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
       Audit Liaison Officer, Department of the Interior
       Audit Liaison Officer, Bureau of Land Management
       Focus Leader for Management Control and Audit Follow-up
       Team Leader, National Land Exchange Team, Bureau of Land Management




                                                 3
                                                           Appendix


   STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

Recommendation            Status             Action Required

      1          Resolved and Implemented   No Action Required

      2          Closed Not Implemented     No Action Required




                                   4
